No.

IN THE SUPREME COURT OF THE UNITED STATES

DAVID PAUL MARTINEZ,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Sup. Ct. R. 39.1, petitioner David Paul Martinez requests leave
to file the accompanying petition for writ of certiorari without prepayment of costs
and to proceed in forma pauperis. Petitioner was previously represented by the
Federal Public Defender for the Northern District of California, whom a Northern
District of California magistrate judge appointed pursuant to 18 U.S.C. §
3006A(a)(1)(A). Therefore, under Rule 39.1 and 18 U.S.C. § 3006A(d)(7), Petitioner
has not attached the affidavit required by 28 U.S.C. §§ 1746 and 1915(a).
Dated: January

, 2021

STEVEN G. KALAR
Fedaa1/13Ublic Defender
/
VARELL L. FULLER*
Assistant Federal Public Defender
* Counsel of Record
LARA S. VINNARD
Assistant Federal Public Defender
55 South Market Street, Suite 820
San Jose, CA 95113
varell_fuller@fd.org
(408) 291-7753

